<html>
<title> - RECOVERING FROM SUPERSTORM SANDY: ASSESSING THE PROGRESS, CONTINUING NEEDS AND REBUILDING STRATEGY</title>
<body><pre>[Senate Hearing 113-107]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 113-107


 RECOVERING FROM SUPERSTORM SANDY: ASSESSING THE PROGRESS, CONTINUING 
                     NEEDS AND REBUILDING STRATEGY

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
           HOUSING, TRANSPORTATION, AND COMMUNITY DEVELOPMENT

                                 of the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

CONTINUING TO ADDRESS THE NEEDS OF THE PEOPLE DEVASTATED BY SUPERSTORM 
 SANDY, THE STATUS OF RECOVERY AND REBUILDING WORK, AND THE HURRICANE 
             SANDY TASK FORCE'S REBUILDING STRATEGY REPORT

                               __________

                           SEPTEMBER 18, 2013

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Available at: http: //www.fdsys.gov /
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

85-570 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director

                Gregg Richard, Republican Staff Director

                       Dawn Ratliff, Chief Clerk

                      Kelly Wismer, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

   Subcommittee on Housing, Transportation, and Community Development

                 ROBERT MENENDEZ, New Jersey, Chairman

             JERRY MORAN, Kansas, Ranking Republican Member

JACK REED, Rhode Island              BOB CORKER, Tennessee
CHARLES E. SCHUMER, New York         PATRICK J. TOOMEY, Pennsylvania
SHERROD BROWN, Ohio                  MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 TOM COBURN, Oklahoma
JOE MANCHIN III, West Virginia       DEAN HELLER, Nevada
ELIZABETH WARREN, Massachusetts      RICHARD C. SHELBY, Alabama
HEIDI HEITKAMP, North Dakota

              Brian Chernoff, Subcommittee Staff Director

         William Ruder, Republican Subcommittee Staff Director

                                  (ii)












                            C O N T E N T S

                              ----------                              

                     WEDNESDAY, SEPTEMBER 18, 2013

                                                                   Page

Opening statement of Chairman Menendez...........................     1

Opening statements, comments, or prepared statements of:
    Senator Schumer..............................................     3

                               WITNESSES

Shaun Donovan, Secretary, Department of Housing and Urban 
  Development....................................................     4
    Prepared statement...........................................    24
Peter Rogoff, Administrator, Federal Transit Administration, 
  Department of Transportation...................................     6
    Prepared statement...........................................    27

                                 (iii)

 
 RECOVERING FROM SUPERSTORM SANDY: ASSESSING THE PROGRESS, CONTINUING 
                     NEEDS AND REBUILDING STRATEGY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2013

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
    Subcommittee on Housing, Transportation, and Community 
                                                Development
                                                    Washington, DC.
    The Subcommittee met at 10:35 a.m. in room SD-538, Dirksen 
Senate Office Building, Senator Robert Menendez, Chairman of 
the Subcommittee, presiding.

         OPENING STATEMENT OF CHAIRMAN ROBERT MENENDEZ

    Senator Menendez. Good morning. This hearing of the 
Housing, Transportation, and Community Development Subcommittee 
will come to order.
    Let me thank our witnesses, Secretary Donovan and 
Administrator Rogoff, for appearing. We appreciate the insights 
you will be able to lend us.
    Today, we look back at Superstorm Sandy, the devastation it 
caused, the status of recovery efforts and what lies ahead for 
the families of my State and every State that felt the impact 
of the storm and that might face similar challenges in the 
future.
    We are pleased to have with us Shaun Donovan, the Secretary 
of Housing and Urban Development, and Peter Rogoff, the Federal 
Transit Administrator for the Department of Transportation, to 
help us look back at the Federal response, help us assess the 
progress we have made in implementing a rebuilding strategy and 
address what still needs to be done. And let me just say, from 
the Chair's own perspective, they have done a remarkable job in 
not only helping us rebuild but also in addressing key 
vulnerabilities.
    Secretary Donovan has ably led the President's Hurricane 
Sandy task force, help coordinate the Federal response and 
recently publish the Hurricane Sandy Rebuilding Strategy Report 
with 69 recommendations to make sure we are not as vulnerable 
when the next storm comes.
    Administrator Rogoff has led the FTA in standing up the 
Public Transportation Emergency Relief Program created by this 
Committee just before the storm in MAP-21. Public 
transportation is essential to the region, and the 
Administrator has helped us get service back to pre-storm 
levels and is now helping the region come back stronger than 
ever.
    As we convene today, it is hard to believe that we are 
approaching the 1-year anniversary of Sandy. It was October 
29th when the hurricane made landfall in southern New Jersey; 
159 people lost their lives; 8.5 million customers lost power; 
more than 650,000 homes were damaged or destroyed; hundreds of 
thousands of businesses were forced to close from a storm that 
caused an estimated $65 billion in economic lost and resulted 
in declarations of emergencies or disasters in 13 States up and 
down the East Coast.
    In a matter of moments, people lost loved ones; they lost 
their homes, their property, their possessions, the cherished 
photographs and keepsakes of a lifetime, but they stood strong 
and began to rebuild.
    For 10 days, millions along the East Coast lived without 
power, without phones. There were seniors stranded on the upper 
floors of buildings where elevator service was out. The loss of 
power led to fuel shortages and long gas lines. We remember all 
too well the images of destruction and human suffering in the 
aftermath of Sandy.
    But Federal, State and local officials and thousands of 
first responders acted quickly. Congress took a little longer, 
but at the end of the day Congress passed--and the President 
signed into law--two pieces of emergency response legislation, 
temporarily increasing FEMA's borrowing authority by $9.7 
billion and a providing a $50 billion relief package for 
families to get the help they needed to rebuild their lives, 
their homes and their businesses.
    We have learned two important lessons since October of 
2012. What you and your agencies have realized and what the 
task force has documented first is that we were more vulnerable 
than we had thought, and second, that the next time and the 
next storm we must better prepared.
    I think all of us are more determined than ever, having 
seen what can happen, to make absolutely certain that it will 
not happen again, that we will never be that vulnerable again.
    And let me add--as we continue to recover from one of the 
worst natural disasters to hit our Nation, we need to be 
careful not to impose a man-made disaster in the form of 
unaffordable flood insurance premiums on those who have already 
lost so much. We need to ensure that reforms to flood insurance 
are done carefully and do not create an additional obstacle to 
recovery and growth. And we need to ensure that homeowners have 
the resources they need to elevate their homes and to take 
other mitigation steps so that they can both limit the damage 
caused by future floods and keep their insurance premiums 
affordable.
    We need to make sure that we come back stronger than before 
and better prepared. It will not be easy. There are always more 
obstacles and more unexpected events that make recovery 
difficult.
    Last week, just as business was recovering on the new 
boardwalk in Seaside Park and Seaside Heights, a devastating 
fire destroyed what just had been rebuilt. And our hearts go 
out to those who have suffered so much in the last year and now 
face another effort to rebuild.
    So, again, I want to thank you both for taking time from 
your busy schedules to give us a progress report.
    I will say that not everything is great. There are people 
still hurting. As I travel my State, I get a real clear sense 
that there are still families challenged. And, while we have 
made a lot of progress and we should be proud in that progress, 
it would be wrong to believe that we have overcome all of the 
challenges that were created by Superstorm Sandy.
    Senator Schumer, would you like to say a few words?

            STATEMENT OF SENATOR CHARLES E. SCHUMER

    Senator Schumer. I would like to say a brief few words, Mr. 
Chairman.
    Senator Menendez. Sure. Absolutely.
    Senator Schumer. I agree with your comments.
    First, I want to thank you, Secretary Donovan, for all the 
work you have done in leading the Sandy recovery task force, 
working closely with the Congress, working closely with our 
State and local officials to rebuild New York and Long Island 
as well as New Jersey and the other areas impacted by Sandy. 
You have done a tremendous job. I do not think there could have 
been a better person to step into the role you have filled and 
provide the leadership you have provided since October 29th.
    Of course, I also have great praise for Peter Rogoff, who I 
knew when he worked on this side of the executive-legislative 
branch amalgam, and he has done a great job there, and he has 
done a great job here.
    What I wanted to say to you, though, Secretary Donovan, is 
I owe it to you and most of all to the people of New York to 
just convey the frustration so many homeowners are feeling.
    We passed a bill back in January with your able assistance, 
and HUD allocated the initial tranche of money within 8 days of 
the bill passing. That is a record response time. You deserve 
the credit for that.
    But now, here we are nearly a year after Superstorm Sandy, 
and the most consistent question I get from my constituents is 
why they have not yet been able to receive either funding or 
reimbursement for the $16 billion--funding for those who are 
waiting and have not been able to rebuild their homes, 
reimbursement for those who were able to lay out the money and 
are looking for the reimbursement. They are still in an 
economic bind.
    So why they were not able to see receiving the funding or 
reimbursement from the $16 billion of community development 
block grant programs in the Sandy supplemental bill?
    As we both know, as we all know, the initial FEMA recovery 
funding for individuals cannot help most of the Sandy victims 
entirely rebuild their homes or fill the void that private 
insurance does not cover. The FEMA limits are low in an 
expensive area like New York and New Jersey, particularly 
problematic to filling the whole problem, and that is why we 
passed a robust CDBG program in the legislation.
    I know that the administration of these funds is largely a 
State or city function. I understand that. But we need to work 
together to make sure that we can do everything we can to get 
this crucial aid out the door and in the hands of homeowners 
and businesses more quickly.
    We need to make sure that we have learned important lessons 
about how to streamline the process so that when the second 
tranche of funds is announced we do not run into as lengthy, or 
the same kind, of delays we have experienced with the first.
    I know you will take that under advisement because you are 
conscientious, capable public servant, but it is really 
important, and it is really bugging our people.
    With that, Bob, I am finished with my statement.
    Senator Menendez. Thank you, Senator Schumer.
    Your full statements will be included in the record. We 
would ask you to summarize them.
    And, with that, Secretary Donovan, please proceed.

 STATEMENT OF SHAUN DONOVAN, SECRETARY, DEPARTMENT OF HOUSING 
                     AND URBAN DEVELOPMENT

    Secretary Donovan. Chairman Menendez, Senator Schumer, 
thank you for having me here today to discuss the critical 
ongoing work to rebuild the region impacted by Hurricane Sandy.
    Thank you, more importantly, for both of your leadership in 
getting the supplemental passed and in being vocal and 
persistent advocates for the people that you serve in New 
Jersey and New York.
    Since February, I have had the honor to chair the Hurricane 
Sandy Rebuilding Task Force and help rebuild my home region. I 
have met with small business owners who had to shut their 
doors. I have talked with homeowners who have lost everything. 
And I have visited with families who are going through 
incredible pain, including a friend who lost his daughter to 
the storm.
    This kind of pain has been experienced across the region. 
Sandy alone caused tens of billions of dollars in damage and 
killed over 150 of our fellow citizens.
    The storm required close coordination between Federal, 
State and local officials, and working together, we organized a 
massive and coordinated response with over 17,000 Federal 
responders on the ground within 7 days of Sandy striking the 
coast.
    The unique scale of the storm also required an additional 
level of cabinet-level coordination to support long-term 
rebuilding in the region. So the President created the 
Hurricane Sandy Rebuilding Task Force. He charged us to work 
with State and local leaders in the region to cut red tape and 
get relief to communities quickly and effectively and to 
develop a rebuilding strategy for the region.
    I am proud to say that we delivered the strategy to the 
President on schedule and under budget--25 percent under 
budget, in fact. But, more importantly, I am proud of the work 
we have done to get assistance to communities struggling to get 
back on their feet.
    As you know, you all not only fought for that funding, but 
you had the foresight to include several measures in the 
supplemental that facilitated more efficient spending of these 
dollars, for example, giving HUD the authority to reduce 
duplicative environmental reviews.
    As a result of these provisions and the work we have done 
cutting red tape, to date, FEMA and SBA have served over 
270,000 households and individuals and almost 4,000 businesses 
and 99.5 percent of Sandy-related national flood insurance 
policy claims, totaling over $7.8 billion, have been paid out.
    As a result, we are making real progress. Just one 
example--97 percent of the beaches from New Jersey to 
Connecticut had reopened by Memorial Day.
    We also recognized early on that we needed to make every 
dollar count and do everything we can to ensure these dollars 
are being used as intended. That is why we set up a program 
management office to track this spending and share that 
information with you and with the public. In fact, we posted 
our first round of information about supplemental spending on 
HUD's Website on August 20th, and we will update that 
information monthly.
    It is also important to note that the Sandy supplemental 
was not just focused on this region. We have also allocated 
hundreds of millions of dollars in supplemental funding to 16 
States still recovering from Sandy and other recent disasters.
    This work--streamlining assistance to families, homeowners, 
small businesses and communities, and working to minimize 
waste, fraud and abuse--has been a critical piece of the task 
force work to date.
    But, as you have both pointed out, recovery is never fast 
enough. And so we have much work to do that is ahead of us, and 
we will continue to do that work until we get the job done. 
Billions of dollars in supplemental funding continue to flow 
into the region--funding that will help more families, 
businesses and communities rebuild.
    In addition to cutting red tape, the task force's other 
goal was to ensure this funding was used in a way, as you said, 
Chairman Menendez, that would help communities rebuild stronger 
so they are better prepared to withstand future storms. On 
August 19th, the task force released our rebuilding strategy 
for the region, which included 69 recommendations to help do 
just that. It included steps to harden our power grid and our 
fuel supply chain, to address the sustained outages and gas 
lines we saw during Sandy, and steps to help families and small 
businesses rebuild stronger and smarter.
    The strategy's focus is on long-term rebuilding in the 
region because larger-scale infrastructure projects, which are 
crucial for the region's protection and for its economy, will 
be built over a period of years, not months.
    The strategy also identifies ways to leverage additional 
private funds to support infrastructure projects and ensure 
projects are coordinated across agencies and geographies.
    Investing in projects that will make our communities more 
resilient is vital to their safety and to protecting our 
investment in them. It is also good economic sense. We know 
that for every dollar we spend in mitigation we save $4 in 
avoided costs in the future.
    Every recommendation in this strategy will have a detailed 
implementation plan, and I and the Administration will be 
accountable to the region and to you to see them through.
    Over the past 11 months, we have made real progress in the 
Sandy-impacted region, but as you and as you have said, more 
work remains, not only to get families and businesses back on 
their feet, but ensure the entire region is better prepared for 
future extreme weather events.
    The rebuilding strategy is a crucial step in the process 
and will also serve as a model for other regions addressing 
similar challenges. I look forward to discussing it more in 
depth with you today and in answering your questions.
    Thank you very much.
    Senator Menendez. Thank you, Mr. Secretary.
    Mr. Administrator.

   STATEMENT OF PETER ROGOFF, ADMINISTRATOR, FEDERAL TRANSIT 
          ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Rogoff. Thank you, Mr. Chairman. Thank you, Senator 
Schumer. And thank you for inviting me today to highlight the 
Federal Transit Administration's role in responding to 
Hurricane Sandy nearly 1 year ago.
    This historic storm triggered the worst public transit 
disaster in the history of our Nation. Hurricane Sandy 
disrupted more than half of our Nation's transit service at the 
height of the storm and impacted more than one-third of the 
Nation's ridership in the days that followed the storm. So, 
from the perspective of the FTA, this was a national disaster, 
not a regional disaster.
    I would like to highlight the extent of our role at the FTA 
in assisting with recovery efforts and our plan to make transit 
infrastructure more resilient in the future.
    Within days of the storm, FTA sought and received two 
mission assignments from FEMA that allowed our two agencies to 
work side by side to evaluate the situation and conduct 
preliminary damage and cost assessments right away. This was a 
new level of partnership between the FTA and FEMA, and it 
served us all very well. The early legwork quickly built the 
case for a responsible Federal aid package which you two 
Senators championed through the Senate and has proven to be 
very successful at aiding in the recovery.
    In the immediate aftermath of the storm, we worked with the 
region's transit agencies to restore essential transit service 
to the public. For example, we helped the Port Authority of New 
York and New Jersey secure essential parts, like power circuit 
breakers which we scoured around the country and found in 
Chicago, so we could reconnect the PATH rail service between 
New Jersey and Manhattan. In New Jersey, we worked with FEMA to 
procure 350 buses to temporarily replace lost rail service, 
enabling commuters to access jobs in Hoboken, Weehawken and 
Jersey City, and we ran express buses into Manhattan. These are 
just two of many instances where we worked tirelessly with our 
transit partners to find short-term solutions to restore 
service for as many people as possible as quickly as we could.
    Then in the span of just 16 weeks, beginning 1 week after 
President Obama signed the Disaster Relief Appropriations Act 
into law, FTA successfully allocated a total of $5.7 billion 
for critical Sandy recovery and resiliency work.
    To date, we have committed more than half, approximately 55 
percent, of the available funds appropriated by Congress, which 
was, of course, reduced as a result of sequestration by some 
$545 million. So, in reality, we have made available more than 
70 percent of the estimated costs for all the response and 
recovery needs.
    These early accomplishments were made possible by the FTA's 
new Emergency Relief Program. The Obama administration first 
proposed this program in our budget for fiscal year 2012 
because we needed a mechanism to provide timely disaster 
assistance to transit agencies on par with the assistance that 
DOT provides to State highway departments through the Federal 
Highway Administration.
    The ERP, as you pointed out, Chairman Menendez, was enacted 
just weeks before Hurricane Sandy hit, and we are very thankful 
that it was because it has more than proven its worth and has 
allowed the FTA to respond in a manner that is a model for all 
Federal disaster assistance.
    I want to thank you, and especially this Committee, for 
supporting our proposal in MAP-21. It has served us all well.
    I do need to point out, however, that with hurricane season 
again upon us, the Congress needs to know that while the 
President's budget for 2013 and 2014 each sought $25 million 
for the ERP, Congress has yet to appropriate any of these 
funds. What this means is that the only emergency relief 
funding we have at the FTA currently must, by law, be used 
exclusively for Hurricane Sandy. I strongly urge Congress to 
provide the funds requested for the national ERP program so FTA 
can be in a position to respond to the next transit emergency 
when it happens.
    FTA has set aside nearly one-third of the total Sandy funds 
allocated to help transit agencies begin investing in 
resiliency projects so their trains and buses, stations and 
subway tunnels are better able to withstand future disasters 
and floods. This was an elemental part of the President's 
proposal that he transmitted back in December.
    Taxpayers should not be asked to pay for the restoration 
and recovery of public transportation assets a second or third 
time. And, certainly, the transit riders of New York and New 
Jersey in particular should not have to put up with the stress, 
the cost and the inconvenience of having the same transit 
facilities destroyed one storm after another.
    Many of you know that some of the very same transit assets 
that were flooded in Hurricane Sandy had been flooded just 1 
year prior during Hurricane Irene. Importantly, Hoboken 
Terminal, an absolute critical intermodal hub for New Jersey 
passengers--Federal taxpayers had already put $200 million into 
the restoration of that excellent facility. We will now, as a 
result of the storm, put several million more into a second 
restoration of the facility.
    This is the kind of thing we are looking at when we 
identify the priorities for resiliency funds.
    Going forward, FTA's first and highest priority for 
fostering resiliency among transit systems is to better protect 
existing transit facilities and equipment from the impact of 
the next disaster. We are confident that the funds set aside 
for the recovery, along with local matching funds and insurance 
proceeds, will be sufficient to meet all of the recovery and 
restoration needs of the region.
    In the weeks to come, FTA will issue a notice of funding 
availability for capital projects that reinforce critical 
transportation infrastructure in the region impacted by 
Hurricane Sandy. Awarding these funds will help ensure that the 
best and most important projects are put forward. Our process 
for awarding these dollars will be informed in part by the 
recommendation of the Sandy task force just discussed by 
Secretary Donovan in their report which was issued in August.
    In particular, there are a number of recommendations that 
relate to coordination that will be very important. If we do 
not have a coordinated regional response, we could have 
investments that protect one rail yard against rising waters 
only to flood a neighboring rail yard that may serve even more 
passengers.
    So Secretary Donovan has done the President, his Federal 
partners and the whole region a great favor in putting together 
this interagency task force because it has given rise to 
recommendations that I think will infuse all of our processes 
going forward.
    Mr. Chairman, Members of the Committee, that concludes my 
statement. I will be happy to answer any questions.
    Senator Menendez. Thank you, Mr. Administrator.
    Mr. Secretary, you know, the challenge of a natural 
disaster is one thing. The challenge of a potential man-made 
disaster is another. And, in that respect, as homeowners are 
trying to recover, they face an ominous specter of rising flood 
insurance premiums that threatens to force them out of their 
homes.
    They are facing a triple whammy.
    First, the storm came and devastated their lives.
    Then updated flood maps came online, and thank God, through 
the intercession of a lot of us who said, wait a minute, these 
seem overly broad--I know from the New Jersey experience. We 
had V zones that were so wide. And then when we met through you 
and FEMA and others, we finally got those tailored to where 
their real V zones are because that would have dramatically 
made it almost impossible for many owners in that property area 
to be able to recover.
    But then, you know, the third part of this is that they are 
seeing flood insurance premiums and their subsidies begin to 
rapidly displace.
    Now I understand the necessity of making the flood 
insurance program fiscally solvent. I understand the challenges 
of repetitive loss properties. I get all of that.
    But what I do not get is creating a process that is so 
driven in the up-front part that ultimately puts at risk the 
essence of the very recovery for which we have spent enormous 
amounts of taxpayer dollars and which has a consequence of 
taking middle-class families and making their home, which is 
their biggest savings in life, ultimately, potentially vanish 
as a result of it and lose their values because with those 
types of high flood insurance premiums the resale value, 
obviously, is affected, which also affects property values 
within the overall community.
    So isn't it--and it will be interesting. This Committee--
one of its subcommittees is having a hearing later on what is 
known as Biggert-Waters and the reform that took place in flood 
insurance.
    And some of my colleagues who were the biggest advocates of 
saying there should be no subsidy by the Federal Government now 
are complaining. They are the ones who actually drove the 
situation in which we ended up with either a vote for something 
that at least sustained the flood insurance program versus 
killing the flood insurance program, which would have wreaked 
havoc in the real estate market and for homeowners.
    But they drove a circumstance that was, in my perspective, 
disproportionate in terms of the consequences to homeowners, 
and now they are complaining about it. I cannot wait to go to 
that hearing.
    So, having said that, do you not agree that the lack of 
affordability for flood insurance programs can be a potential 
obstacle for recovery in community-wide levels?
    Secretary Donovan. There is no question that this has been 
one of the most critical issues that we have heard on the 
ground from homeowners, from small businesses, and that there 
is real--and I think genuine--concern about this issue.
    I would really say there are three things that are critical 
for us to do here, Senator.
    One, we have got to proceed with the critical investments 
in elevating homes, making homes and businesses safer for the 
next storm, which not only will save lives and help communities 
but also, frankly, lower substantially flood insurance rates. 
And that is obviously happening as part of the investments 
through the supplemental.
    Second--and this is something that you both made very clear 
points to me about over time--too often the system is set up 
for communities that are not urban. You know well the buildings 
you showed me in Hoboken that cannot be elevated. The 
brownstone that I used to live in, in Brooklyn, cannot be 
elevated.
    And so one of the things that we are moving forward on, 
based on the task force recommendations and your input, is to 
give more credit in the flood insurance program. We are running 
a pilot to do this that is really looking at--if you elevate 
your mechanical systems, if you flood-proof your home rather 
than elevating it, how do we recognize that better in the flood 
insurance program?
    So that is a second area.
    And then, third--and this really--when Biggert-Waters was 
passed, the Administration in its statement about the bill said 
we should be providing affordability mechanisms that are not in 
the bill today.
    And we continue to believe--and you will hear this, I am 
sure, from Craig Fugate today, but we believe, strongly stated 
in the strategy, that we stand ready to work with Congress to 
find affordability provisions that will insulate those 
vulnerable families, low and moderate income families who 
simply cannot afford these, from the worst impacts of that. 
That is something that Congress ought to do quickly because, as 
you rightly said, as these new flood maps are going into 
effect, it will start to have these impacts right away.
    Senator Menendez. Yes, well, the affordability question is 
an essential question for recovery and for preservation of 
homes as well as for real estate issues overall.
    Let me just stress one other area. I have a whole host, but 
I am going to yield to Senator Schumer in a moment.
    The other question is--and I know that some of this--I 
assume. Maybe I am not right, and correct me if I am wrong.
    A large part of this was devolved to the States as well. 
But if I hear as I travel the State about the question of I did 
not get my money fast enough, or I still have not received the 
efforts to--I mean the monies necessary to help me.
    Delays in getting funding--which I think the task force 
recognized in the rebuilding strategy and included some very 
high-level discussions of work to get aid into people's hands 
faster without sacrificing strict and thorough oversight to 
protect against fraud.
    Can you talk about what some of those challenges are--
because I still hear it today, nearly a year later, and I think 
Senator Schumer may as well back in New York, as well as 
others, that we still have people finding the challenges of 
getting access to these resources to be able to rebuild their 
lives even nearly a year later.
    Secretary Donovan. There is no question that while we have 
made progress there are still many things that we can do, both 
administratively and also legislatively, to speed up the 
process of getting help to families.
    And let me just be clear. We now have both in New Jersey 
and in New York thousands of homeowners and renters that have 
been approved for assistance. The money is beginning to flow.
    Hundreds of businesses--there has been less sort of sign-
up. And I think we need to do more outreach to businesses to 
try to make sure that those who do need help are actually 
coming in. They have been in the hundreds, rather than 
thousands, of applicants for those programs, both in New York 
and New Jersey. So outreach is important here.
    But let me really go through the three major categories 
here.
    First of all, on housing, you know this well. I think FEMA 
did a very good job of getting the initial assistance out 
quickly. But, as Senator Schumer pointed out, it is not enough. 
Thirty thousand dollars roughly, particularly in this region, 
is not enough.
    Many issues around insurance, both flood insurance and 
homeowner's insurance--and there, what we did--one of the huge 
problems was we had dozens of different policies for different 
lenders on how to do this.
    We brought together Fannie Mae, Freddie Mac, FHA, and we 
have now established--and some of this helped in Sandy; some of 
it, frankly, will help in the next storm but did not help in 
Sandy--a single consistent policy around insurance 
disbursements.
    And, frankly, FEMA now has a plan to add insurance 
adjusters and others into a region that was so dense, like 
Sandy, the next time we have a storm.
    So there are lessons we have learned that we can be faster 
on the insurance.
    And then the CDBG, as you know, is the gap-filler, right? 
And many of the problems that we have are what we call 
duplication of benefits. Can we figure out what complies and 
what did not?
    I will tell you there was a lot of confusion about past 
policies, and we had to go in and do things like say: No, no, 
no, you do not have to have applied for SBA to get help as a 
business. You do not have to stop work on your renovation if 
you are paying for it, if you are paying for it yourself, if it 
is already started, if you have hired a contractor because the 
environmental reasons.
    There are just many, many complexities, some of which, 
frankly, ought to be there because it will ensure that the 
money is spent well, but there are others that, frankly, we can 
continue to change. And we would be happy to work with you on 
which of that is legislative. A lot of it is administrative, 
and we can do better.
    And I give you a lot of credit for giving us more 
flexibility on CDBG.
    Senator Menendez. I agree, but when you make the statement, 
money is beginning to flow, when people are looking at nearly a 
year after the storm and money is beginning to flow, it speaks 
why we need to find a process that is safe and secure in terms 
of making sure that there is not fraud, but by the same token 
an expedited process to achieve the goals.
    Senator Schumer.
    Senator Schumer. And I would just agree with both of 
Senator Menendez's comments.
    Flood insurance--these pilot programs are great, but if you 
are a homeowner and they are asking you for 9,000 bucks and you 
cannot afford it, saying 3 years from now there may be some 
pilot program that figures out how to raise my house or put up 
a barrier and lower my flood insurance does not do them much 
good.
    We will have this, this afternoon, but the flood insurance 
bill, the law, the Biggert-Waters, said they were not going to 
implement until there was an affordability study. They have 
implemented it without an affordability study.
    We have got big problems there, OK.
    And, second, on just what Bob said, I said in my opening 
statement. We understand all the problems. There are different 
sources of dollars. Obviously, if you give people more money 
than they should get, then people will get whacked for it, as 
proper. On the other hand, it has flowed very slowly for the 
people who are waiting and waiting and waiting, who do not have 
huge resources.
    For governments, it has worked better because they can 
borrow and get reimbursed. It is a lot harder for a homeowner 
to do that.
    Having said that, I know you will give it your best effort. 
I really appreciate that.
    I have a couple of questions for Administrator Rogoff, and 
then maybe I will return back to Secretary Donovan.
    My first question is about the four critical East River 
Tunnels that transport hundreds of thousands of Long Island 
Railroad passengers. They sustained severe damage in Sandy. One 
month after the storm, over 50 rush hour trains were still not 
in service, leaving thousands of people stranded, trains packed 
to the gills and people not getting to work. It is our 
lifeblood to get people on and off Manhattan Island. Loads of 
people from Long Island work there, as well as people from the 
outer boroughs.
    And the MTA and Long Island Railroad commuters have long 
complained, as I have, that we need to do a better job 
maintaining the East River Tunnel structure. And I hope 
Hurricane Sandy, which dealt a real blow, was a final wake-up 
call. We no longer have any time to waste.
    These tunnels are a lifeline to Long Island. They help fuel 
the Long Island economy and the metropolitan area economy. You 
know, some several hundred thousand people on Long Island work 
in Manhattan and New York City. And, if these tunnels get 
blocked, which they do, people do not get to work; people get 
there late to work; businesses even think of not locating 
because they cannot get their workforce.
    So the tunnels, as I said, are a lifeline, allowing 
hundreds of thousands to earn a living, day-in, day-out. They 
must be protected.
    So it is my understanding that Amtrak and the MTA are 
working cooperatively right now on a resilience plan for the 
East River and Hudson Tunnels, and the plan has two parts.
    First, it would seal off the West Side Yard and the Long 
Island City Yard from hurricane-level storm surges to prevent 
water from inundating the Hudson and East River Tunnels, 
respectively.
    And, second--and this one is of great importance--it would 
install high-density signaling in the East River Tunnels. We 
have had huge problems with the signals there and delay after 
delay after delay.
    Before and after Sandy, the East River Tunnels suffered 
from antiquated signaling infrastructure that both slowed the 
rate of service and made the system prone to outages. By 
installing new high-density signaling in the tunnels, we can 
better manage the system during emergencies like Sandy, as well 
as increase capacity and service redundancy, and the added 
benefit will be it is going to make fewer delays even in 
nonstorm times from this damage. The MTA estimates about $85 
million to $90 million is needed to execute these resiliency 
measures.
    So I am asking strongly, with great fervor, to make sure 
that we can get this done. I would just like a commitment today 
that you will work with me, the MTA and Amtrak to fund these 
programs, using some of the $10.4 billion in FTA Sandy funding 
to build these resiliency projects. We need to work together on 
this. It is really important, and I am pushing you as hard as I 
can.
    Mr. Rogoff. Understood. Senator Schumer, you do not have to 
tell me about the elemental importance of the Long Island 
Railroad Tunnels. I grew up on the Port Washington Branch and 
took it into Manhattan any number of times.
    These tubes do not just serve Amtrak and the MTA. They 
actually also serve New Jersey Transit----
    Senator Schumer. Yes.
    Mr. Rogoff.----interestingly enough, because the New Jersey 
trains need to get out to Queens to turn around.
    Senator Schumer. Right
    Mr. Rogoff. You heard me say in my opening statement that 
our highest priority for resiliency funding is going to be 
protecting the existing transit assets that serve millions of 
people every day. I cannot make, obviously, a particular 
commitment to this particular MTA request, but you have my 
assurance that we will take a very hard look at it when it 
comes in.
    Senator Schumer. Right.
    Mr. Rogoff. And we certainly understand the central 
importance of that to the whole region.
    Senator Schumer. I appreciate that very much. I will keep 
on your back----
    Mr. Rogoff. Undoubtedly.
    Senator Schumer.----until we get a commitment, as you know 
me well enough to know.
    Mr. Rogoff. Right.
    Senator Schumer. Second, on these tunnels, it is my 
understanding that you expect to select projects from the 
remaining $5 billion in a competitive pool of resiliency 
projects. This is the second tranche.
    Since the bulk of the transit damage was in the New York-
New Jersey area, can I have your commitment you will work with 
the MTA, Amtrak and New York City to ensure our region gets the 
funding it needs to strengthen the system to the fullest extent 
possible?
    As you know, we wrote this legislation with these systems 
in mind. And I know there is sort of a tendency in Washington 
to spread money here, there and everywhere, but what I would 
like is the dollars to be distributed in proportion to the 
damage to the mass transit systems covered by Sandy. I am not 
asking for specific projects.
    That would mean that the New York-New Jersey mass transit 
would get the vast bulk of these funds. I assume that is your 
intention.
    Mr. Rogoff. Our intention is to look at the transit service 
and the assets as a whole for the region. And, as I said in my 
initial statement, we need to take care that there really is a 
rich regional discussion because we have a lot of shared assets 
between New Jersey Transit and Amtrak and the MTA services--
both Metro North and Long Island Railroad.
    And we need to make sure that we spend these dollars in a 
way that protects the existing infrastructure on the whole. 
Shame on us if we take more than $10 billion in national 
taxpayer dollars and then do as you said--spread the dollars 
here, there and everywhere and then have to come back to the 
taxpayers to rebuild the infrastructure after the next storm. 
We have a commitment to protecting the infrastructure that was 
damaged, from future impacts, and you certainly have my 
commitment to attend to that.
    Senator Schumer. Great. And, by the way, on the first one, 
I take it a decision is going to be made within the next month 
or two.
    Mr. Rogoff. Our goal is to get our notice of funding 
availability out later this fall. Conversations are ongoing 
with Secretary Foxx, and it is moving forward.
    Senator Schumer. Right. This is on the signals. Yes, that 
should be in a few months you will make a decision?
    Mr. Rogoff. Our goal is to get the notice of funding 
availability out.
    We are already in regular dialogue, if not daily dialogue, 
with the MTA and New Jersey Transit on the process.
    Senator Schumer. I know.
    Mr. Rogoff. So they are already preparing materials, and we 
look forward to receiving them.
    Senator Schumer. Right. OK. Good.
    Well, my time is up. I had another question or two, but I
    Senator Menendez. Go ahead.
    Senator Schumer. OK, I will take one more. This is to 
Secretary Donovan.
    One of the concerns we have is multiple reviews that slow 
things down, related to our questions before. Under FEMA 
regulations, if there is FEMA money, repair, construction or 
elevation is exempt from NEPA requirements as long as the 
repairs do not substantially alter the preexisting design, 
function and location of the property.
    For a homeowner to put a new roof on their home, you do not 
need a home NEPA review. It would make it ridiculous. It would 
slow things down.
    The problem is that we do not have such a commitment with 
CDBG. So, in the areas where there will not be FEMA money for 
one reason or another, we are worried that the NEPA review for 
CDBG, or whatever environmental review there is, would just 
slow things down dramatically.
    What can HUD to streamline the environmental review process 
to avoid unnecessary delays?
    Secretary Donovan. So, first of all, I think we have done a 
lot, partly with your help, in Sandy that has sped up the work 
that has been done. And let's recognize we do already have more 
than $5 billion out of the supplemental that has actually been 
paid out, over $11 billion that has been committed. So, while 
you do have concerns about the pace, relative to past 
disasters, we are moving more quickly.
    Senator Schumer. Doing better.
    Secretary Donovan. One of the real lessons we learned in 
Katrina was exactly the point that you are making, and you all 
gave us the ability when we have a FEMA environmental review to 
waive a CDBG review.
    One of the things I would suggest is that the next time we 
have a disaster and do a supplemental, that we give that 
authority across any Federal agency. If there is an acceptable 
environmental review done by the Department of Transportation, 
for example--we had exactly this issue in Katrina--why not say 
that is acceptable for CDBG?
    And particularly as we do resilience, where they may only 
be able--or FEMA may only be able--to pay for what was there 
before the storm, there will be a requirement to have CDBG 
dollars above and beyond that to do mitigation. So it only 
makes sense, if we are going to take the right approach, to do 
that more broadly.
    In addition to that, I think there are a number of steps 
that we can take, and we have done some of those. There were 
initial questions about if I have already started work on my 
home, do I have to stop in order to get--there was some 
confusion about this. We clarified it as quickly as we could, 
to say, look, if you started already and you have a contractor 
that was working, you do not have to stop. So that now is 
allowing people to keep going.
    There are many smaller things like that, but the most 
important would be giving us the flexibility in CDBG to take 
any other Federal agencies' review.
    Senator Schumer. Just one final--this is not a question 
because I know my time up, but I would urge you--I think there 
are about $300 million in unmet reimbursement need for New York 
City that will not be fulfilled in the first tranche. I would 
urge you strongly to make sure there is enough money in the 
second tranche to do that because people are waiting for their 
reimbursement.
    Secretary Donovan. Absolutely.
    Senator Schumer. Thank you.
    Thank you, Mr. Chairman.
    Senator Menendez. All right, Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    I apologize for my delay in getting here. Senator Markey 
was giving his what is still referred to in 2013 as his maiden 
speech--some day we will change that--on the floor of the U.S. 
Senate, and I wanted to be there for it.
    But I have read your testimony, and so what I wanted to 
start with is back in January when Congress provided $50 
billion in funding for Hurricane Sandy recovery. We all know it 
is important to spend the money wisely, and it means thinking 
long term, not just rebuilding, but updating our housing supply 
so it is better able to withstand bad weather conditions, 
modernizing the electric grid, our communications system.
    So that is why I was pleased to see the recommendations. 
Many of them have a very long-term focus, and the 
recommendations in the Hurricane Sandy Rebuilding Strategy 
Report released last month takes this long-term approach.
    Now the next step, of course, and perhaps the more 
challenging one is executing on the recommendations.
    So, Secretary Donovan, the question I have is that the 
report explains that agencies will be monitored and held 
accountable if they do not follow the recommendations of the 
report, but the interagency task force that drafted the report 
will be disbanded soon. So who exactly will be monitoring the 
agencies' performance after that?
    Secretary Donovan. You are looking at him. I am going to 
continue leading this effort with the assistance of Craig 
Fugate. We will be convening on a monthly basis all of the key 
agencies that have been part of the task force to track 
implementation.
    I will not give you the thick stack of implementation plans 
we have developed for every one of the 69 recommendations and 
the tracking process. We have a project management office that 
we set up that is going to continue in existence and be part of 
the FEMA office in the region that is tracking it.
    And I will be convening the entire cabinet that is engaged 
on a quarterly basis to make sure that we have the full 
attention of the cabinet, with the assistance of Denis 
McDonough and Alyssa Mastromonaco, who have been deeply 
involved in this process.
    So I believe we have a full strategy to make sure that the 
strategy is implemented, but I look forward to you and your 
colleagues holding our feet to the fire to make sure that 
happens as well.
    Senator Warren. Oh, good.
    Mr. Rogoff. I might just weigh in, Senator Warren.
    Senator Warren. Please.
    Mr. Rogoff. We, at the DOT, are one of those agencies who 
will be part of that process. It has really already started. We 
are already about the business of reporting to the successor of 
the task force, if you will, in terms of what progress we are 
making, and it is a very productive interagency relationship.
    So I am very optimistic that this report is not going to 
just get stuck on a shelf.
    Senator Warren. I am very glad to hear this and very glad 
to hear that you have got strong implementation plans, not only 
in place, but that they have actually started.
    Can I ask the other part of the question, though, and that 
is how will the agencies be held accountable if they fail to 
follow the report's recommendations?
    Secretary Donovan. So, obviously, that depends on the 
specific recommendation.
    Senator Warren. Sure.
    Secretary Donovan. But, generally speaking, what I would 
say is this is something the President is watching. He included 
the work of the Sandy task force as a central element in his 
Climate Action Plan, looking at how we make our regions more 
sustainable, more resilient, going forward. He created a 
working group to take many of these recommendations to a 
national level--infrastructure resilience guidelines and other 
things.
    And so, ultimately, this is a question that we will be 
watching, and there will be clear consequences from whether it 
is a call from me, a call from the President, if those 
recommendations are not being carried forward.
    Senator Warren. And I take it you will also be public about 
recommendations that are not being carried forward, as well as 
those that are?
    Secretary Donovan. We are currently reporting on a regular 
basis, now monthly, all of the spending of the supplemental 
dollars.
    Senator Warren. Good.
    Secretary Donovan. And we will be tracking--and we would be 
happy to share with you--implementation of the milestones in a 
very clear way though this project management office.
    Senator Warren. Great. And just one more while I am trying 
to make sure I have got all this. If any of the agencies lag 
behind in spending their allowed or allocated funds, will you 
also be tracking that, and will they be held accountable?
    Secretary Donovan. This is the data that we have started to 
publish now on HUD's Website for the public on a monthly basis.
    One of the things that is important here--Congress did, for 
the first time ever, put in the supplemental a 24-month 
requirement for each of the spending categories. That is 
something that we have worked very hard closely with all the 
agencies to make sure that where, for example, we have long-
term transit that will clearly take beyond 24 months, that we 
provide a provisional waiver but still subject to spending 
deadlines. But the majority of the funding will still be 
subject to the 24-month.
    And so you have given us a tool that will allow us to hold 
agencies accountable as well.
    Senator Warren. Well, this is really good to hear, and I 
appreciate it.
    You know, after the flooding of the Mississippi River in 
1993 and after the Hurricane Katrina in 2005, there were 
reports issued with detailed recommendations, and then very few 
of those recommendations were actually implemented. So, when I 
see good recommendations, I really want to know that we are 
going to follow through and make sure that they are there.
    So, thank you.
    Mr. Chairman, could I have your indulgence to ask one more 
question? I know I am over time.
    Senator Menendez. Go ahead.
    Senator Warren. Good. So I have a second one that I wanted 
to ask about, and that is, of course, as you know, New Jersey 
and New York bore the brunt of Sandy's impact, but other 
coastal States were hit hard as well. In Massachusetts, for 
example, the storm caused flooding on the coastline, on the 
islands; it damaged facilities at Hanscom Air Force Base, at 
Cape Cod Air Force Station.
    So the question I have is based on your experience with 
Sandy what do you both think could be done to prevent or 
mitigate the impact of future coastal storms?
    Whoever would like to start--Secretary Donovan?
    Secretary Donovan. I would say, first of all, the emphasis 
and the structure of the funding that was in the supplemental 
has given us a head start on that. Resilience and mitigation 
were key parts of the strategy for the supplemental the 
President proposed and that was passed, and we are implementing 
that in many, many ways.
    I think the single place to start is to make sure that 
communities have the information, the science that they need, 
to be able to make the right decisions. And so that is why we 
talked a little bit earlier with Senator Menendez about the 
FEMA flood maps and updating those.
    But also we provided for the first time through the task 
force a tool that allows communities, individual homeowners and 
businesses to access information up to 100 years into the 
future about what sea level is expected to be.
    And we have, for the first time, incorporated across the 
entire supplemental guidelines that say we have to look at 
particularly for infrastructure not just current flood risk but 
future flood risk. And so that is the first time we have ever 
done it. We are now looking at expanding that nationally as 
part of the President's Climate Action Plan.
    Senator Warren. Can I follow up to that----
    Secretary Donovan. Yes.
    Senator Warren.----by just asking, have you considered 
developing a coastal storm strategy that would permit Federal, 
State and local officials to better coordinate their weather 
management and address infrastructure and zoning differences?
    Secretary Donovan. Yes, and in fact, first of all, we now 
have the best science available because of the work of the task 
force. That is a critical piece of the information you are 
talking about.
    Thanks to the supplemental, the Army Corps of Engineers is 
doing a full study from Virginia up to Maine of both natural 
and kind of hard infrastructure and what should be done. We are 
collaborating closely with them on that strategy.
    And then the third thing I would point out--we have 
convened a competition which is going to use some of the Sandy 
supplemental money. We got 150 teams, 148 to be exact, from 
over 15 countries that are now competing. We have chosen 10 
finalists that are looking to propose really innovative, 
cutting-edge approaches in a set of places across the region.
    And so we think that is a way, not just in terms of science 
and a broad approach but also with very, very innovative 
projects, to bring the best thinking from around the world to 
the region that could be models for what we do in other places.
    Senator Warren. And you will be developing plans to do this 
so that it is regional, but we are also picking up the State 
governments in this and our municipal governments all along the 
shore?
    Secretary Donovan. We are partnering very closely. And we 
are not going to just develop the plans. We are going to build 
the infrastructure as a result of this competition.
    Senator Warren. That is terrific.
    Mr. Rogoff. Senator Warren?
    Senator Warren. Yes, please.
    Mr. Rogoff. If I could just add three quick thoughts--
first, on response and recovery, we did actually at the Federal 
Transit Administration provide a comparatively small grant to 
the MBTA based on the costs that they did encounter preparing 
for and responding to the storm.
    And, while, as we said earlier in the hearing, the 
resiliency funds which we will now be putting out are centrally 
focused on protecting the infrastructure that was destroyed, 
transit agencies throughout the States that did have a disaster 
declaration, which included Massachusetts, are eligible to 
participate.
    I think, importantly, going forward--we, actually a year 
before Hurricane Sandy hit, put out a report about the impacts 
of climate change on transit infrastructure, which is getting a 
lot of attention, thankfully, by the planning community as we 
make plans going forward for future investments.
    One quick anecdote that I keep being reminded of in this 
incident--I was at--I am not going to say where, but I was at a 
dedication of a new bus facility, and the general manager of 
the transit agency was telling me how cheaply they got the 
property to locate this new facility.
    And, when I pressed him on why, he explained that it is in 
the floodplain, and ``we are a municipal government. So we can 
locate here while everyone else cannot.''
    And all I could think of was, well, perhaps that is true, 
but I am not sure you should.
    And I think that is an important element here. To the 
extent that public assets--public transit assets or public 
housing assets--are asked to take the less valuable property 
and that less valuable property is vulnerable, we are not 
serving the taxpayer well who subsidizes those elements, and we 
are certainly not serving the transit users or the tenants 
well.
    So we need to maybe change the dialogue here in terms of 
who gets access to protected property versus who gets property 
that is most vulnerable.
    Senator Warren. Good. Well, I thank you both very much and 
really appreciate your looking at this as a coastal storm 
strategy that we have to develop together and use a lot of 
long-term planning on it.
    I appreciate the approach here, and as you said, we are 
going to hold you to it.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you.
    Thank you, Senator Warren.
    And I can assure the Senator that we are not going to let 
the report just get cobwebs because the Committee is going to 
exercise continuing oversight jurisdiction on housing, on mass 
transit and on community development. So I am sure that the 
Secretary's request to have his feet held to the fire will be 
honored along the way.
    Secretary Donovan. Thank you. I am not surprised.
    Senator Menendez. And, in that regard--and I look forward 
to that the oversight is largely a providing of information of 
how you have succeeded.
    But, in that regard, I do hope--and Senator Warren pursued 
a lot of questions that I was going to pursue subsequently, and 
I think most of it has been answered.
    But I am concerned. I hear what you are going to do as the 
follow-on to the task force. I am not so sure of the timeframe 
for ending the task force. I am not saying the task force 
should exist forever, but I am not so sure the task force's 
timeframe--its ending of it is timely, and I worry about that, 
to be honest with you.
    I understand that from your answer to Senator Warren you 
are going to hold the monthly meeting by certain elements of it 
and then a quarterly meeting by cabinet members.
    You know, there is still a lot of resources to go out.
    There is still a lot of legislative activity which I hope 
that I could ask you, Mr. Secretary, to send to me. What are 
the legislative elements?
    I guess we could glean it as we go through the report, but 
to the extent that you and your people can pinpoint, what are 
the legislative elements that we need out of all of these 
recommendations so that we can begin to think about pursuing 
them and finding the appropriate legislative vehicles here to 
effectuate them?
    That would be very helpful as part of it.
    But on the overall question of the follow-on, is the ending 
of the task force because of resources? Is the ending of the 
task force because you think your job is finished?
    I am trying to get a sense of why we would not keep this 
for a period of time longer, especially when we have all of 
these issues, the recommendations that you have given and the 
fulfillment of that which is already out there in terms of 
resources to be achieved successfully.
    I want to make sure we get this right, and so I do not want 
something arbitrary like, for example, if there is a cost 
involved with the task force, that that should not be 
considered.
    Secretary Donovan. It is a very fair question, and it is 
one that, frankly, we had a number of debates about. We did say 
it was going to be a short-term task force focused on this 
strategy.
    I think the most important answer to your question, 
Senator, is that we need to make the function that the task 
force has performed in cutting red tape and providing 
coordination, standard operating procedure. It should not 
require a task force to accomplish these things, and I hope you 
would agree with that.
    The question is, how do we take the National Disaster 
Recovery Framework that Janet Napolitano and I worked on when 
the President first came in and enhance it so that we have the 
highest level of interagency coordination and engagement of 
principles.
    One of the most important things has been me getting my 
colleagues on the phone and saying, look, we have got a problem 
here with this confusion. We have got to decide this, and not 
in a month, in a day.
    And so what we have done is to take something called the 
Recovery Support Federal Leadership Group--in disaster-speak, 
the RSFLG--and turn it into a higher level, more active group 
that we hope will take over, not just now, but in the future, 
the role that the task force has played and that I will then 
chair these regular meetings of it.
    We have also embedded the program management office and 
many of the things from the task force, including the literal 
staff, into an office on the ground in the region that is going 
to continue doing work. As you know, this National Disaster 
Recovery Framework had over 100 personnel that are continuing 
to work there in the region.
    So what we are trying to do is really make sure that this 
is not a special thing, but it is something--particularly with 
a disaster of the scale and scope of Sandy--that we stand up as 
a matter of course going forward, and that is really what we 
are trying to accomplish.
    Senator Menendez. And I agree with you.
    Secretary Donovan. There are risks to that.
    Senator Menendez. I agree with you that the desire to 
create a regime that ultimately is standard operating procedure 
is the ultimate goal.
    Secretary Donovan. Yes.
    Senator Menendez. The question in my mind is who drives us 
to the point that it becomes the standard operating procedure, 
and that is where I am concerned for the task force, not for 
the task force's sake, but who drives the elements of your 
recommendations into the very fabric of how we respond in any 
disaster.
    That is what I am concerned about, but I hear from your 
response to Senator Warren that to a large degree that is going 
to be you.
    Secretary Donovan. I will continue to do that with Craig 
Fugate. And I will also say there is a lot of engagement at the 
White House from Denis McDonough and Alyssa Mastromonaco as 
well as from the National Security staff and the Domestic 
Policy Council. So I think there is a structure in place to 
continue doing this.
    I am not saying it will be a perfect transition because it 
is new and it is change, but I know that you will also--both of 
you and the Committee--if there are issues that you see 
happening because of that transition, please let me know and we 
will respond.
    Senator Menendez. And I do hope that you will work with us 
on both looking at the legislative elements of this that may be 
necessary to get us to the point of being better prepared for 
any future storm.
    It happened along the East Coast of the country. This can 
happen anywhere, anytime. We already saw the floodings in 
Colorado. The consequences are potentially there for anyone.
    So today, or a year ago, it was New York, New Jersey, 
Massachusetts, Connecticut and others. It can happen anywhere.
    Secretary Donovan. Yes.
    Senator Menendez. So I hope you will work with the 
legislative elements, and I also hope that you will work with 
us on the affordability questions and on the insurance. I think 
that those are critical.
    Mr. Administrator, I want to ask you a question or two, and 
then we will let you go.
    I hope--and maybe you can speak to this. I have often 
spoken about--from my days in the House on the Transportation 
Committee and continuing on this Subcommittee--that the 
redundancy of transportation in a post-September 11th world is 
incredibly important.
    We think about it only as different modes of 
transportation, but that redundancy, whether it was what was 
available to us in the aftermath of a terrorist attack and the 
tragedy that ensued or the redundancy that existed as we were 
dealing with Hurricane Sandy about how do people get to move 
around after the storm, is important here.
    And, as you look at how the rest of this funding moves 
forward, I hope one of the elements you are going to look at 
is, number one, how do we maintain those elements of 
redundancy--because whether that is a transit line, a light 
rail line, a ferry service, a heavy rail line, bridges, all of 
those elements, bus service, that unique universe of 
transportation modes that create the backstop for whether a 
man-made disaster or a tragedy or a natural one is critically 
important.
    And, particularly in the region, that we look at how we 
apportion the proceeds that are left in a way that looks toward 
maximizing the prevention in the future and the shared assets 
that can help everybody in the region because there is no use 
of being able to go one way into New York or not being able to 
get from New York back to New Jersey. The State of New York or 
the city of New York cannot collect their tax on those who work 
in New York. They do not get the proceeds from the resources of 
those who work in New York and spend their money there and, 
therefore, pay sales taxes.
    And, vice versa, New Jerseyans will not get, by way of 
example, the opportunity to pursue their employment or 
businesses in the transit.
    So I am hoping you are looking, as you are calibrating, at 
how you are going to pursue the response in ways that have the 
largest benefit over the longest period of time and look at 
redundancy as part of that.
    Can you speak to those issues?
    Mr. Rogoff. I can, Mr. Chairman. Redundancy will certainly 
be an important element that we will look at and, as you point 
out, especially in a region like the Tri-State Region, where we 
have an abundance of shared-use infrastructure.
    When we lost the tunnels under the Hudson to Amtrak 
service, we also lost it to New Jersey Transit service. The 
solution was to stand up a lot of additional express bus 
service as fast as we could through the tunnels when they were 
dry but, importantly, to stand up immediately additional ferry 
service, including private ferry service. And we needed to have 
that ability.
    I remember vividly a tourist ferry, one of those we used to 
call the Circle Line. I think it has a different name now, but 
the kind of ferries that was used for tourists coming to New 
York, which they certainly were not doing immediately after the 
storm, being drafted into service for cross-river commuters.
    So we need to make sure that there is that capacity for 
redundancy. We have done that in some investments, for example, 
on making sure that there could be ferry access not just to 
Hoboken but to Liberty Island as a secondary ferry site.
    In terms of allocating the resiliency funds going forward, 
yes, as I said earlier, our highest priority is going to be 
protecting the infrastructure that exists, that is serving 
millions and millions of people each day. But we need to 
recognize that even with those best efforts, we could lose that 
infrastructure at least temporarily, and the economy needs to 
continue to move forward, and people need to be able to have 
access, need to be able to get home, need to be able to get to 
work.
    So, yes, certainly, those will also be investments that we 
will be looking at.
    Secretary Donovan. I would just add, Senator, one specific 
example of that. I give a lot of credit to the Department of 
Transportation team. We worked collaboratively.
    There is a major project going on, on the Manhattan side of 
the Hudson--Hudson Yards--which we were able to, between 
Amtrak, working with a developer who I had worked with closely 
in New York, set aside the right-of-way and actually build a 
box as their establishing foundation that could allow future 
redundancy for tunnels under the Hudson through the Gateway 
Project. And that is something that had we not worked together 
across agencies we might have lost that opportunity forever 
because once the project proceeded and those platforms were 
built it would not have been possible to undo it.
    So that is just one example where I think we have been 
thinking ahead, as Peter said, around redundancy and preparing 
for the future.
    Senator Menendez. I appreciate that.
    And the very last question, Secretary, is this Committee 
has--the full Committee, not the Subcommittee--but the full 
Committee has jurisdiction, obviously, over financial 
institutions such as banks, has jurisdiction over insurance, 
and both of those entities in the context of the aftermath of 
the storm played roles.
    They were not always very good roles. The standardization 
of many proceeds that were supposed to go to the homeowner 
ended up going to a bank if the bank had a mortgage or other 
security lien. Insurance companies ended up with checks and 
then established their own process about how those would be 
disbursed to the individuals if they had an insured interest in 
the property.
    I hope part of our work here is going to--and I think you 
mentioned it in the context of insurance.
    But I hope we are going to work to standardize a process 
that does not have the homeowner ultimately further challenged 
by banking and insurance entities, recognizing their interest, 
but does not have them hold this up inordinately in order to be 
able to receive the proceeds that are meant by the Federal 
Government particularly for these individuals to be able to 
reestablish their lives because I heard a lot of that during 
the aftermath of the storm.
    Secretary Donovan. Senator, you are absolutely right.
    There are three components of what we did.
    First, given that there was not a statutory requirement but 
knowing that between FHA, Fannie Mae and Freddie Mac we covered 
a majority of the mortgages in the region, we sat down to have 
an aligned policy to say: We are banning foreclosures. You 
cannot foreclose on anyone affected by the storm for, 
initially, 30 days. Ultimately, we extended that to 90 days.
    So that was one.
    Second, we worked together to make sure that at the point 
that moratorium ended and we had a suspension of payments in 
some cases, that those families would not be hit then with, 
well, you owe us $20,000 because you did not pay for 3 months 
or 6 months.
    And so we created a standardized process to modify those 
mortgages and reduce the payments. In no case was a person 
allowed to have a higher payment as a result. So, if you needed 
to extend out the term, or whatever else, we created a 
consistent policy on that.
    And, third, we had been working on a coordinated policy for 
insurance disbursements because it is important. We have seen 
homeowners taken advantage of. It is important to have 
standards in place that say, look, your contractor has to show 
that the work is done, there are draws that are done, but to do 
it in a way that is clear and that is fair to families.
    And what I would suggest is maybe we can come to you with 
those policies, and we could think about whether there is 
something we can do either in the statutory or the regulatory 
context that could make this not just about Fannie Mae, Freddie 
Mac and FHA because we plan to adopt these as national 
policies, but to make this more consistent across the entire 
industry.
    Senator Menendez. Thank you.
    Do you have anything?
    Senator Warren. No, I am good.
    Senator Menendez. Thank you very much.
    Well, with the thanks of the Committee for your testimony 
here today and also for the work that you put into this effort, 
we appreciate it. We look forward to continuing to work with 
you.
    The record will remain open for 1 week from today for 
Members who have questions. If you receive questions, we would 
urge you to answer them as expeditiously as possible.
    And this hearing is adjourned.
    [Whereupon, at 11:44 a.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
                  PREPARED STATEMENT OF SHAUN DONOVAN
         Secretary, Department of Housing and Urban Development
                           September 18, 2013
    Chairman Menendez, Ranking Member Moran, and Members of the 
Subcommittee, thank you for the opportunity to testify today regarding 
the ongoing effort to rebuild in the region impacted by Superstorm 
Sandy.
    Because Sandy was one of the most devastating and costly natural 
disasters in our history, the President recognized that the response 
required an additional focus on rebuilding efforts coordinated across 
Federal agencies and State, local, and Tribal governments to 
effectively address the enormous range of regional issues.
    On November 15, 2012, President Obama announced that I would lead 
the coordination of Federal efforts to support the long-term rebuilding 
effort, and the President issued Executive Order 13632 on December 7, 
2012, establishing the Hurricane Sandy Rebuilding Task Force, and 
appointed me to serve as its chair. Executive Order 13632 charges the 
Task Force to ``work to ensure that the Federal Government continues to 
provide appropriate resources to support affected State, local, and 
tribal communities to improve the region's resilience, health, and 
prosperity by building for the future.''
    My responsibilities in this role occur in concert with the National 
Disaster Recovery Framework (NDRF) and involve cooperating closely with 
the Federal Emergency Management Agency (FEMA) and the other agencies 
involved in recovery efforts. The focus of the Task Force is on 
coordinating Federal support as State, local and Tribal governments 
identify priorities, design, and implement individual rebuilding plans. 
I am the Federal Government's primary lead on engaging with States, 
Tribes, local governments, the private sector, regional businesses, 
nonprofits, and community and philanthropic organizations on long-term 
Sandy rebuilding.
    Sandy and the Nor'easter that followed have had immense and varied 
impacts across much of the eastern United States, with damage most 
severe in New York, New Jersey, Connecticut, Rhode Island, and 
Maryland.
    Within the United States, the storm caused over 150 fatalities, 
major flooding, structural damage, and power loss to over 8.5 million 
homes and businesses, directly affecting more than 17 million people as 
far south as Puerto Rico, as far north as Maine.
    Sandy caused tens of billions of dollars in damage and is estimated 
to be the second most costly storm in American history. Thousands of 
businesses and more than 650,000 homes were damaged or destroyed. 
State, local and Tribal governments are addressing damage to roads, 
bridges, mass transit and other essential infrastructure, including 
electrical and water treatment facilities, public hospitals, and 
shorelines.
    In addition to my concern as a citizen and as a member of this 
Administration, this is personal to me. I grew up in the region. I was 
born and raised in New York and worked on housing issues there, 
including serving as Mayor Bloomberg's Commissioner of the New York 
City Department of Housing Preservation and Development. I also worked 
on housing issues for Prudential Mortgage Capital in New Jersey, and my 
wife is originally from New Jersey. Many of my friends have been 
directly affected by the storm's devastation. In light of my deep roots 
in the region, I am particularly concerned with the devastation that 
Sandy has caused, and I am especially honored to have the opportunity 
to help with recovery and rebuilding efforts.
    I have seen much of the damage first-hand, talked with State and 
local officials and citizens living with the aftermath of the storm, 
had discussions with Senators and Representatives from the area, and 
have met with other Federal officials working on the recovery effort. 
Everyone involved in the recovery and rebuilding has demonstrated 
extraordinary dedication and courage.
    Just as remarkable are the actions by average people I have spoken 
with--individuals who have demonstrated a different brand of heroism by 
simply reaching out to help their neighbors, even as they were facing 
their own losses. I have seen bravery and determination that inspires 
me and my colleagues to work even harder, respond quicker, and develop 
more creative solutions.
    With that mission in my mind testimony today will cover: 1) an 
assessment of the ongoing recovery efforts; 2) a brief background on 
the formation and role of the Hurricane Sandy Rebuilding Task Force and 
3) the role of the supplemental funding provided by Congress.
Ongoing Response and Recovery Efforts
    Before I describe the task force's activities, it is important to 
note the unprecedented cooperation that is taking place among Federal, 
State, local, and Tribal authorities. HUD, FEMA and other parts of the 
Department of Homeland Security (DHS), as well as the Departments of 
Transportation, Health and Human Services, Interior, Commerce, and 
Agriculture, plus the Small Business Administration (SBA) and the U.S. 
Army Corps of Engineers (USACE) and other agencies are all working 
together. For example, as a result of coordination under the National 
Response Framework (NRF), within a week after Sandy hit there were 
almost 11,000 National Guard and 17,000 Federal responders on the 
ground from FEMA, the Department of Defense, USACE, HUD, Department of 
Transportation, Department of Energy, and HHS, as well as tens of 
thousands of utility workers from across the Nation.
    As of July 2013, FEMA and the SBA have served over 270,000 
households and individuals and nearly 3,900 businesses. Additionally, 
99.5 percent of Sandy-related National Flood Insurance Policy claims 
totaling over $7.8 billion have been paid out, and FEMA has provided 
$12 billion in funding to individuals and communities.
    The start of the 2013 summer tourist season was one of the most 
closely watched indicators of the recovery. And I'm proud to say that 
thanks to the hard work of FEMA, the Army Corps of Engineers and so 
many others, on Memorial Day 2013, 97 percent of public beaches from 
New Jersey through Connecticut had re-opened.
The Role of the Hurricane Sandy Rebuilding Task Force
    Our efforts on Sandy have been shaped by the lessons learned in 
past disasters while also working to streamline administrative 
processes and assist families, businesses and communities in an 
efficient and effective manner. The Administration has recognized that 
our experience during Hurricane Katrina and other disasters highlighted 
the need for additional guidance, structure, and support to improve how 
we as a Nation address disaster-related recovery and rebuilding 
challenges. In September 2009, then-Homeland Security Secretary Janet 
Napolitano and I were charged with leading work on this effort and 
establishing a Long Term Disaster Recovery Working Group, composed of 
more than 20 Federal agencies. HUD, DHS, and theWorking Group consulted 
closely with State, local, and Tribal governments as well as experts 
and stakeholders, and they worked to improve the Nation's approach to 
disaster recovery and to develop operational guidance for recovery 
efforts.
    As a result, in September 2011, FEMA published the National 
Disaster Recovery Framework (NDRF). The NDRF addresses the short, 
intermediate, and long-term challenges of managing disaster-related 
recovery and rebuilding. It sets forth flexible guidelines that enable 
Federal disaster recovery and restoration managers to operate in a 
unified and collaborative manner and to cooperate effectively with 
State, local, Tribal, and territorial governments.
    There are three primary lessons that are guiding our efforts to 
support local community rebuilding efforts.
    First, it is vitally important that both near and long-term 
recovery and rebuilding efforts start immediately following a disaster 
and that the Federal Government takes a coordinated regional approach 
to the delivery of assistance to its State and local partners. To 
ensure that this happens, the Hurricane Sandy Rebuilding Task Force is 
filling this regional coordinating role, working in coordination with 
the Federal Disaster Recovery Coordinators under the NDRF, and focusing 
on rebuilding.
    Second, this must be an ``All-of-Nation'' approach to 
rebuilding.While the Federal Government has a key role to play in 
recovery, State, local, and Tribal governments must be the leaders in 
this effort. To ensure the Task Force's efforts maintain a local focus, 
we quickly established an Advisory Group composed of 37 elected 
officials from impacted communities in New York, New Jersey, Rhode 
Island, Maryland and Connecticut.We were also in constant contact with 
other State and local officials--which gave us real-time information 
about the rebuilding challenges communities faced. When the Task Force 
officially terminates on September 30, 2013, FEMA and the lead agencies 
for the Recovery Support Functions, as described in the NDRF, will 
continue the Federal rebuilding coordinating efforts in the region.
    Third, the recovery effort must include rebuilding in a more 
resilient fashion rather than simply recreating what was already there 
so that we are prepared for future disasters. One of the most critical 
concerns we heard from our local partners was that communities needed 
clear, accessible information about current and future flood risk. As 
one CEO who lost critical facilities to Sandy flooding put it, ``just 
tell me how high to rebuild.'' In order to gather the best information 
on the risks the region faces, the National Oceanic and Atmospheric 
Administration and the Army Corps of Engineers developed a tool which 
allows local planners and decisionmakers to click on a map and see 
projections of the impacts of rising sea levels as much as a century 
into the future. To ensure this science would be put into practice, the 
Administration established a single Flood Risk Reduction Standard that 
applied to all rebuilding projects funded by Sandy-Supplemental 
dollars.
    But we have not just armed communities with the best available 
data--we have also worked to connect communities with the most 
innovative engineering, planning and design ideas from around the 
world. That's why we launched Rebuild By Design, a multi-stage regional 
design competition, specifically to develop innovative projects to 
protect and enhance Sandy-affected communities.
    Everybody has a part to play in building a stronger region, and we 
will continue to foster and encourage new ideas and learn from our 
recovery partners across the country and the globe.
The Task Force and Supplemental Funding
    Rebuilding must be a community-driven effort, with a community-
based vision at its heart. But supporting that vision through financial 
means is a key part of the Federal role--one that has consistently been 
present for communities experiencing disaster.
    On January 29, President Obama signed the Disaster Relief 
Appropriations Act (DRAA) of 2013. The supplemental funding bill 
included funds for FEMA and USACE projects, Transportation, support for 
the Small Business Administration and its disaster loan program, 
Community Development Block Grant-Disaster Recovery (CDBG-DR), funds to 
be provided to communities, and funding for a range of other critical 
priorities.
    As of August 2013, Federal agencies have obligated over $9.9 
billion in DRAA funds to help communities rebuild after Sandy. The 
Federal Highway Administration allocated nearly $1 billion to rebuild 
roads and bridges damaged by Sandy and other disasters. HUD has also 
allocated the first $5.4 billion of CDBG-DR funding for Sandy recovery, 
and an additional $580million to other State and local government to 
assist in their recovery from major disasters in 2011, 2012 and 2013.
    The Task Force authored a Rebuilding Strategy document that was 
released in August that establishes recommendations that will help 
guide tens of billions of dollars in funding from the Sandy 
Supplemental Appropriations Act that continue to flow to the region. In 
total, the Rebuilding Strategy includes 69 recommendations, many of 
which have already been adopted. They are divided into several policy 
priorities related to housing, small business and infrastructure issues 
that were identified through the Task Force's public engagement with 
local leaders and community groups and were developed in direct 
coordination with our partners across the Federal Government.
    In addition to providing the necessary resources to continue 
ongoing response and recovery efforts, the DRAA also provides funding 
to help impacted communities effectively mitigate future risk of 
disaster to prevent losses of this magnitude from recurring.
    We have solid evidence that sea levels are rising and that the risk 
of large scale disasters and catastrophic losses is increasing due to 
increasing development along our coasts and changes in demographics and 
climate. Our best science tells us that these trends will continue, 
that as sea levels continue to rise, this will further increase risks 
from storm surges and the intensity of extreme weather events, so it is 
vital that communities rebuild in a way that mitigates the risks posed 
by current storms and under future conditions.
    Investing in mitigation is critical not only for the future of our 
communities--it is also cost effective. The National Institute for 
Building Safety's Multihazard Mitigation Council has estimated that for 
every dollar invested in hazard mitigation, a savings of four dollars 
is achieved. Disaster survivors currently have access to post-disaster 
Hazard Mitigation Grant Funds in coordination with their State and 
local hazard mitigation plans to assist in taking protective mitigation 
actions against future events. Such investments are critical in a time 
of constrained resources. In addition, it is critical to maximize the 
impact of every dollar of supplemental funding. To that end, the 
Rebuilding Strategy outlines a process for coordinating infrastructure 
projects across the entire region by bringing all of the relevant 
Federal, State and local players to the table to discuss those projects 
and map connections and interdependencies between them. This process 
will help us save money, improve the effectiveness of these projects 
and accelerate the pace at which they're built. The Strategy also 
highlights how the alignment of Federal funding and increased leverage 
of nonFederal funds for infrastructure projects are important to the 
success of disaster recovery in the Sandy affected region.
    I look forward to continuing to work with this Subcommittee, others 
in Congress and our Federal, State, local, and Tribal partners to help 
make local rebuilding visions a reality, to support communities that 
are rebuilding in a way that makes them stronger, more economically 
competitive and better prepared to withstand the next storm and risks 
far into the future, and to help inform how the Federal Government 
responds to disasters in the future.
    Thank you again for the opportunity to testify today. I am happy to 
answer any questions you may have.
                                 ______
                                 
                   PREPARED STATEMENT OF PETER ROGOFF
             Administrator, Federal Transit Administration
                      Department of Transportation
                           September 18, 2013
    Mr. Chairman, Ranking Member Moran, and Members of the Committee: 
Thank you for inviting me to appear before you today to highlight the 
Federal Transit Administration's (FTA) role in assisting communities 
devastated by Hurricane Sandy nearly 1 year ago. This historic storm 
triggered the worst public transit disaster in the history of the 
United States, disrupting more than half of our Nation's transit 
service at the height of the event, and impacting more than one-third 
of the Nation's ridership in the days following the storm.
    The U.S. Department of Transportation (DOT) and FTA were highly 
proactive in addressing the challenges posed by the superstorm--and 
that posture made a tremendous difference in our ability to respond 
swiftly and responsibly, with the express goal of helping the region 
restore access to vital transit service to millions of riders who 
depend on it daily.
    In the days preceding and immediately following the storm, FTA 
worked closely as part of the larger DOT effort to develop a rapid-
response strategy to assist transit providers in the short-run, while 
laying the foundation for the responsible administration of Federal-aid 
funds in the months ahead. DOT issued $59 million in quick-release 
emergency relief funds within weeks of the storm to get roads, bridges, 
and tunnels on the path toward recovery. Working with the Federal 
Emergency Management Agency (FEMA), FTA executed two mission 
assignments to oversee and engage FTA staff and its project management 
oversight contractors to conduct continuing damage assessments and 
cost-validation work for both operating and capital costs associated 
with restoring and rebuilding transit capacity. Those mission 
assignments allowed FTA and FEMA to work side-by-side almost 
immediately after the storm to evaluate the situation on the ground and 
conduct preliminary damage assessments.
    And we drew upon our regional staff to stand up a Regional 
Emergency Response Coordinator for the New England Region to support 
the DOT's Emergency Support Function 1 under the National Response 
Framework. This provided daily on-the-ground monitoring and contact 
with the affected agencies to obtain a real-time view of challenges, 
needs, and progress. We also repositioned FTA staff to Joint Field 
Offices in New York and New Jersey to assist State and local 
governments and other infrastructure owners in the effort to restore 
transportation service. This level of response was accomplished even as 
FTA's own New York-based regional office was taken completely off-line 
for 2 weeks as a direct result of the storm.
    These early joint efforts with FEMA and our experts on the ground 
allowed us to set responsible financial-aid goals, while also factoring 
in future insurance reimbursements the transit agencies would receive 
from their providers. Confident that help was on the way, the affected 
transit agencies did not hesitate to incur immediate expenses via in-
house force accounts and third-party contracts so they could take 
necessary measures in the immediate aftermath of the storm to get the 
recovery effort started.
    For example, within days of the storm, the New York Metropolitan 
Transportation Authority (MTA) and the Port Authority of New York/New 
Jersey began pumping over 65 million gallons of water from the New York 
City subway system and more than 125 million gallons of water from the 
World Trade Center site. By November 3, two of the East River tunnels 
on rail transit lines between Manhattan and Brooklyn, and Manhattan and 
Queens, were operational-contributing to the MTA's ability to restore 
80 percent of subway service very quickly.
    FTA also assisted the Port Authority of New York/New Jersey in 
securing hard-to-find but essential equipment, like power circuit 
breakers, which were essential to reconnecting Port Authority Trans-
Hudson (PATH) rail service between New Jersey and mid-town Manhattan, 
as well as the World Trade Center station in lower Manhattan, and the 
rest of the Northeast corridor. We worked directly with CTA in Chicago 
to obtain these parts and have them driven across the country to get 
those trains moving again.
    And by May 30, 2013, the MTA had completed an extraordinary feat, 
restoring rail service for 35,000 riders who take the A Train from Long 
Island to Manhattan every weekday, thus reunifying Rockaway Peninsula 
with the rest of Queens. MTA was able to rebuild, test, and re-open 
several miles of rail in just 7 months--an extraordinary feat, 
considering the complexity of the task.
    On behalf of New Jersey Transit (NJT), FTA worked with FEMA through 
the General Services Administration's Federal Acquisition service to 
procure 350 buses to temporarily replace lost rail service in New 
Jersey. This emergency service enabled commuters to access jobs in 
Hoboken, Weehawken, Jersey City, and Manhattan. Seventy of those buses 
were ready for service the first week of November 2012, just days after 
the storm hit.
    We also supported efforts by NJT to restore service on major 
commuter rail lines, including the North Jersey Coast Line, the 
Gladstone Line, and the Morris Essex Line. And we encouraged NJT to 
contract extra ferry service to provide additional transportation 
service between New Jersey and New York. Special ferry service was put 
into place from the Hoboken Inter-Modal Transit terminal, which was 
severely damaged in the storm, to Pier 79 in midtown Manhattan; from 
Liberty State Park to World Financial Center in Lower Manhattan; and 
from Weehawken Terminal also to Pier 79.
FTA's Emergency Response Program Strengthens Response Capabilities
    None of these rapid, early accomplishments to restore service would 
have been possible if FTA did not have the proper mechanism in place to 
facilitate action. The Emergency Relief Program is that mechanism, and 
I commend the Committee for granting our request in the Moving Ahead 
for Progress in the 21st Century Act (MAP-21) to establish this 
essential program. When we proposed this program in the President's FY 
2012 budget, we envisioned it as an important mechanism for 
strengthening FTA's authority, on par with the Federal Highway 
Administration, to provide timely disaster assistance to transit 
agencies whose assets are damaged or destroyed. The program has more 
than proved its purpose in the wake of Hurricane Sandy, and with your 
support, the FTA's response stands as a model for Federal disaster 
assistance and a powerful reminder of what our Nation can accomplish 
when we all work together.
    An important caution is in order, however. Hurricane season is once 
again upon us. And, at present, the FTA has only those emergency relief 
funds that were made available exclusively for Hurricane Sandy. The 
President's FY 2013 and 2014 budget requests each sought $25 million to 
capitalize the Emergency Relief program for disasters throughout the 
country. To date, Congress has not appropriated those funds. I strongly 
encourage the Congress to appropriate those funds so, when the next 
disaster strikes and takes public transportation systems offline, FTA 
will be in a position to respond immediately.
    For Hurricane Sandy, the Emergency Response Program, along with 
proactive efforts by DOT, FTA, FEMA and other partners, enabled us to 
work swiftly to put a responsible, streamlined relief effort in place. 
To date, FTA has succeeded in allocating to the region's transit 
agencies a total of $5.7 billion for critical Sandy recovery and 
resiliency work in the span of approximately 16 weeks, beginning 1 week 
after President Obama signed the Disaster Relief Appropriations Act 
(Pub. L. 113-2) on January 29, 2013. That means FTA has already 
committed more than half--approximately 55 percent--of the available 
funds appropriated through the Disaster Relief Act (taking into account 
a $545 million sequestration cut to the original $10.9 billion amount) 
for relief and recovery to the hardest-hit transit agencies in New York 
and New Jersey, and several others also affected. We are grateful to 
this Committee for its support. Nearly one-third of the total funds 
allocated have been set aside by FTA to help the transit agencies begin 
investing in resiliency projects to help ensure that their assets--from 
trains and buses to stations and subway tunnels--are better able to 
withstand future disasters, such as major floods.
    At this juncture, $577 million of the funds committed have been 
obligated, primarily to the MTA, PATH, NJT, and the New York City 
Department of Transportation. FTA also provided recovery funds to the 
Southeastern Pennsylvania Transportation Authority, Rhode Island Public 
Transit Authority, and Massachusetts Bay Transportation Authority.
    FTA has made an extraordinary effort to make emergency relief and 
recovery funding available as expeditiously as possible, to ensure that 
millions of riders have access to the transit services they depend on. 
We continue to work very closely with the affected transit agencies as 
they draw down available funds from FTA to implement these important 
recovery projects.
Funding for Recovery and Resiliency Projects
    FTA's first and highest priority for fostering resiliency among 
transit systems is to better protect existing transit facilities and 
equipment from the impact of the next disaster. Taxpayers should not be 
asked to pay for the restoration and recovery of public transportation 
assets a second or third time. And the transit riders of New York and 
New Jersey, in particular, should not have to put up with the stress, 
the cost, and the inconvenience of having the same transit facilities 
destroyed by one storm after another.
    FTA is confident that the funds set aside for recovery, along with 
local matching funds and insurance proceeds, will be sufficient to meet 
all of the recovery and restoration needs of the region. We consider it 
prudent, however, to reserve $1.1 billion of the approximately $4.5 
billion remaining to recovery projects, to ensure the impacted agencies 
will have all of their recovery needs met. This decision reflects 
concerns that latent damage not yet identified, as well as increased 
project costs, could impact the transit agencies' ability to meet all 
of their recovery needs with the funds available.
    The Disaster Relief Act appropriates up to $5.383 billion (less the 
sequester amount of $545 million) for projects related to reducing the 
risk of damage from future disasters in areas impacted by Hurricane 
Sandy. FTA has already allocated $1.3 billion for locally prioritized 
resiliency projects for transit agencies in the hard-hit New York-New 
Jersey metropolitan region. Approximately $3 billion remains available 
for resiliency projects, which are projects designed and built to 
address future vulnerabilities to a public transportation facility or 
system due to future emergencies or major disasters that are likely to 
occur in the same geographic area or where there are projected changes 
in development patterns, demographics, or extreme weather or other 
climate patterns.
    FTA will soon issue a notice of funding availability (NOFA) 
directed at capital projects that will reinforce critical 
infrastructure necessary to support public transportation systems in 
the region impacted by Hurricane Sandy. This funding will be available 
on a competitive basis.
    The cost of making all public transportation assets in the New 
York-New Jersey region even more immune to future disasters would be 
quite substantial and these costs are not fully known. The remaining 
Disaster Relief Act funds that have yet to be allocated will not come 
close to meeting the contemplated resiliency needs of the public 
transportation systems in the region affected by Hurricane Sandy. 
Awarding funds for resiliency projects on a competitive basis allows 
project sponsors across the impacted region--any of whom could be 
affected by a future storm of unknown magnitude or location--to advance 
their best and most important projects to protect the region's transit 
infrastructure.
Coordination with Hurricane Sandy Rebuilding Task Force
    As a result of the extreme devastation caused by Hurricane Sandy, 
President Obama convened the Hurricane Sandy Rebuilding Task Force, 
composed of the leaders of Federal agencies responsible for various 
aspects of the recovery. Housing and Urban Development Secretary Shaun 
Donovan, who is testifying today, chaired the task force. The task 
force issued the Hurricane Sandy Rebuilding Strategy report in August 
2013, laying out key principles for recovery, as well as related 
recommendations to guide the implementation of federally supported 
recovery efforts. Those recommendations will certainly inform our 
direction as we develop our Notice of Funding Availability. 
Specifically, the task force has recommended that Sandy-rebuilding 
infrastructure projects be designed to increase the resilience of the 
region and be regionally coordinated. We will seek to incorporate the 
need for a comprehensive, science-based analysis; transparency in the 
decisionmaking process; fiscal and environmental sustainability; 
performance standards; and targeted financial incentives.
    Both scientific evidence and recent history indicate that weather 
and climate-related disasters are a continuing threat. According to the 
Hurricane Sandy Task Force, in the last year alone, there were 11 
different weather and climate disaster events across the United States 
with estimated losses exceeding $1 billion each. Taken together, these 
11 events resulted in more than $110 billion in estimated damages.
    In recognition of this threat, we at FTA issued our own prescient 
report just before Hurricane Irene and more than a year before 
Hurricane Sandy, ``Flooded Bus Barns and Buckled Rails: Public 
transportation and Climate Change adaptation,'' that provides 
professionals with information and analysis relevant to making U.S. 
public transportation assets and services more resilient to climate 
change impacts. The report provides examples of adaptation strategies 
and discusses how transit agencies might incorporate climate change 
adaptation into their organizational structures and existing activities 
such as asset management systems, planning, and emergency response.
    Federal investment in the improved resilience of public 
transportation systems is intended to reduce the economic and social 
consequences of future disasters, including both the potential cost of 
rebuilding after the next storm and the social and economic 
consequences of suspended or inoperable transit service on the riding 
public. In the New York-New Jersey region, it is particularly important 
to focus on regional investments that protect the larger transit 
network--a network that serves far more transit passengers than any 
other region of the country. Absent adequate regional coordination and 
planning, investments to protect one rail yard against rising waters 
might only serve to flood a neighboring rail yard that supports 
services to an even greater number of passengers. As such, FTA will be 
particularly supportive of regional solutions that address the 
protection of the tri-State transit network on the whole.
Conclusion
    FTA's Public Transportation Emergency Relief Program and the 
funding appropriated through the Disaster Relief Appropriations Act 
have made a tremendous difference to millions of residents and 
especially commuters living and working in the regions impacted by 
Hurricane Sandy. FTA will continue to work closely with the transit 
agencies hit hardest by Hurricane Sandy to ensure they can recover from 
this major disaster and emerge stronger than before. The millions of 
riders in New York and New Jersey deserve a robust public 
transportation network that can deliver the service they depend on 
every day. Investing in the protection of the region's transit 
infrastructure now will help reduce the impact of travel delays, 
disruptions, and economic losses when the next big storm hits.
    We look forward to continued efforts to make meaningful progress 
with our transit agency partners in New York and New Jersey as they 
propose essential public transportation projects to further expedite 
recovery from Hurricane Sandy and lay the foundation for a more 
resilient future. We stand ready to provide the funds appropriated for 
this purpose as expeditiously as possible, while maintaining stringent 
oversight of taxpayer dollars. And we call on Congress to continue 
funding FTA's Emergency Relief Program, to ensure that communities 
around the country have a Federal partner willing and able to help 
restore public transportation service damaged by a catastrophic 
emergency.
    Thank you and I am happy to answer any questions you may have.



</pre></body></html>
